                                                         (j~\. SBCv
                                                                 :'t­
                                                                                     ICN   31170-23-169
                                                        ~
                                                        \ 1IIII11~,~
                                                            :.VZsT\\.l'-

                                            SOCIAL          SECURITY
                                             Office of the Inspector       General
MEMORANDUM

Date:      June   18,    2001                                                         Refer To:

Tn'
           Larry G. Massanari
           Acting Commissioner
            of Social Security
From:

           Inspector    General

Subject:
           Performance Measure Review: Reliability of the Data Used to Measure Disability
           Determination Services Decisional Accuracy (A-O7-99-21007)
                             \..

           The attached final report presents the results of our audit. Our objective was to assess
           the reliability of the Social Security Administration's (SSA) performance data used to
           measure the accuracy of disability decisions made by State Disability Determination
           Services (DDS) during Fiscal Year 1999. The DDS Decisional Accuracy Rate was one
           of the performance indicators developed by SSA to meet the requirements of the
           Government Performance and Results Act of 1993.

           Please comment         within 60 days from the date of this memorandum     on corrective action
           taken or planned       on each recommendation.     If you wish to discuss the final report,
           please call me or      have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit,      at (410) 965-9700.
                                                                            /




            Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



 PERFORMANCE MEASURE REVIEW:
 RELIABILITY OF THE DATA USED TO
MEASURE DISABILITY DETERMINATION
 SERVICES DECISIONAL ACCURACY


  June 2001       A-07-99-21007




AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                         -)0" SEC&
                                                       Ci        ~
                                                     5l~Ifj~
                                                      './/'USA

                                                     ~     111\111 ~~
                                                         'J\']sTi-t'-

                                         SOCIAL           SECURITY

                                         Office of the Inspector             General
MEMORANDUM
Date:      JUN 1 8 2001                                                                       ReferTo:

        Larry Go Massanari
To:     Acting Commissioner

         of Social Security

From:   Inspector General


Subject:Performance Measure Review: Reliability of the Data Used to Measure Disability
        Determination     Services Decisional Accuracy (A-07 -99-21007)

                          ~.}£
        The Governmen-t Performance and Results Act (GPRA) of 1993, Public Law 103-62,
        requires, in part, that the Social Security Administration (SSA) develop performance
        indicators that measure or assess the relevant outputs, servjce levels and outcomes of
        each program activity. GPRA also calls for a description of the means employed to
        verify and validate the measured values used to report on program performance.

        The objective of this audit was to assess the reliability of SSA's data used to measure
        the following Fiscal Year (FY) 1999 GPRA performance indicator:

                        Disability   Determination    Services             (DDS) Decisional     Accuracy:

                                                         97%      (goal)


                                                     96.7%        (actual)



        We reviewed the Office of Quality Assurance and Performance Assessment's (OOA)
        statistical methodology for calculating FY 1999 DDS Decisional Accuracy. Our
        recalculation of the FY 1999 DDS Decisional Accuracy determined that the
        methodology and data were reliable. However, OOA's methodology for calculating
        DDS Decisional Accuracy was not documented in the form of written procedures.

        We did not determine the accuracy of the quality assurance {QA) reviews used byOQA
        to determine the DDS Decisional Accuracy Rate due to the technical nature of the
        QA review. Our audit was limited to reviewing OQA's methodology and data used for
         calculating the rate.
BACKGROUND

OQA performs a QA function under SSA’s Deputy Commissioner for Finance,
Assessment, and Management. QA reviews are conducted on a sample of cases
closed by DDSs in the 50 States, the District of Columbia, and Puerto Rico.1 Cases are
randomly selected from each DDS’ allowances and denials to measure the quality of
initial DDS determinations. The results of the QA reviews are tabulated and used to
calculate the DDS Decisional Accuracy Rate reported in SSA’s Accountability Report.
Appendix C provides an overview of OQA’s process for determining the rate.
                                                                Cases Selected for Quality
In FY 1999, DDSs closed 2,001,386
initial disability cases. QA reviews were                          Assurance Review
completed on 42,313 cases, of which
18,501 were allowances and 23,812
were denials. The QA reviews included
13,847 Disability Insurance (DI),2
17,537 Supplemental Security                                                                    Sample
                 3
Income (SSI), and 10,929 concurrent                                                             42,313
cases.4                                                                                           2%


Sample Selection Process

OQA uses an automated process, referred to as the Automated Sample Selection
Process (ASSP), to select the sample
cases for QA review. The ASSP                    Cases Selected for Quality
chooses the cases from the National
                                              Assurance Review by Decision
Disability Determination Services
System (NDDSS) population of cases
                                        Allowance
for which the DDS has issued a medical    18,501
determination. Disability cases are        44%                            Denial
recorded in NDDSS for internal                                            23,812
management information and case                                             56%

control.




1
 Approximately 11,887 cases closed by Federal employees are not included in the QA review process for

purposes of calculating the DDS Decisional Accuracy Rate. This includes cases from Guam,

Northern Mariana Islands, American Samoa, the Virgin Islands, and the Federal DDS in Baltimore.

2
    The DI program provides disability benefits to disabled wage earners and their families.

3
    The SSI program provides income to financially needy individuals who are aged, blind, and/or disabled.

4
 When a claimant files a claim under both the DI and SSI programs, the cases are considered

concurrent.



                                                       2
OQA’s general sampling methodology is designed to select 70 allowances and
                                       5
70 denials every 3 months from each DDS and produce, at the 95 percent confidence
level, the accuracy rate estimate.

QA Review Process

The SSA regional Disability Quality Branches (DQB) review sample cases prior to the
claimant being notified of the DDS decision. The DQB’s review duplicates the DDS
decision process to the fullest extent possible by evaluating the sufficiency of medical
evidence in the file, impairment severity, medical improvement, duration, residual
                                                                6
functional capacity, onset and ending dates, and diary action.

When DQB finds that a disability determination is deficient, the case is returned to the
DDS. If the DDS agrees with the DQB, the DDS will take the action requested: i.e.,
obtain the requested documentation and/or correct the documentation. The case is
then returned to the DQB for completion of the review and input of the final results. If
the corrective action resulted in a changed decision, the case will be counted as an
error in calculating the Decisional Accuracy Rate. However, if the DDS disagrees with a
decisional deficiency, the DDS will work with the DQB to resolve the difference. If the
DDS provides sufficient evidence to convince the DQB that the original disability
decision was accurate, the DQB will rescind the deficiency and will not count the case
as an error in calculating the Decisional Accuracy Rate.

During FY 1999, of the 42,313 cases selected for QA review, 1,416 were counted as
errors in calculating the DDS Decisional Accuracy Rate. Appendix D provides detailed
rates for each region and state.

RESULTS OF REVIEW
We reviewed OQA’s statistical methodology for calculating the FY 1999 DDS Decisional
Accuracy. Based on our recalculation of the FY 1999 DDS Decisional Accuracy Rate,
we determined that the methodology and data were reliable. (Appendix B details the
scope and methodology used in conducting our review.) However, OQA did not
document the methodology for calculating DDS Decisional Accuracy in the form of
written procedures.




5
  Larger samples are drawn for the New York and California DDSs because of the volume of cases
processed and the large number of decentralized offices. In addition, during the period of our audit, if a
DDS’s accuracy in either or both allowances and denials was 91 percent or lower in any 3-month period,
the sample for the deficient group was increased to 196 cases for a minimum of 3 months, or until
improvement occurred.
6
 According to Program Operations Manual System GN 04440.115, medical review issues include, but are
not limited to, the items enumerated.



                                                     3
OQA’S METHODOLOGY WAS NOT DOCUMENTED

OQA has not formally documented its methodology for calculating DDS Decisional
Accuracy. GPRA requires that agencies "describe the means to be used to verify and
validate measured values." Furthermore, the Office of Management and Budget
Circular Number A-123, Management Accountability and Control, requires that
"…documentation for transactions, management controls, and other significant events
must be clear and readily available for examination."

CONCLUSION AND RECOMMENDATION

We found that, based on our tests, the data used to calculate the FY 1999 DDS
Decisional Accuracy performance measure was reliable. However, we recommend that
SSA develop a comprehensive set of policies and procedures to document all phases
of OQA’s methodology for calculating DDS Decisional Accuracy.

AGENCY COMMENTS

In response to our draft report, SSA disagreed with our recommendation that it
document OQA’s methodology for calculating DDS Decisional Accuracy in writing. SSA
stated that the definition of net accuracy and a description of the methodology used to
calculate DDS Decisional Accuracy are documented in its monthly Net Accuracy
Report. See Appendix F for SSA’s comments on our draft report.

OFFICE OF THE INSPECTOR GENERAL’S RESPONSE

We agree that the monthly Net Accuracy Report provides a definition of net accuracy
and a general definition of the methodology used to calculate DDS Decisional
Accuracy. However, SSA does not have a comprehensive set of policies and
procedures documenting all phases of its methodology for calculating DDS Decisional
Accuracy. For example, procedures on developing the sampling intervals used to
select the proper number of allowance and denial cases from each DDS are not
documented in writing. To clarify our meaning of “methodology,” we are modifying our
recommendation to read: “SSA develop a comprehensive set of policies and
procedures to document all phases of OQA’s methodology for calculating DDS
Decisional Accuracy.”




                                           4
OTHER MATTERS

SSA does not have a method to assess the overall accuracy of payment outlays for
disability-based benefits, taking into account both medical and non-medical factors of
eligibility. In conducting our audit, we identified a distinct difference in the accuracy of
disability decisions as determined by OQA at the initial and appeals levels. We also
found that disability decisions to claimants were delayed an average of 75 days because
of problems in resolving results of the QA review. Therefore, some claimants did not
receive benefit payments timely. See Appendix E for the results of these analyses.




                 ,        i'
                          '...
                ,. .:r­
                .

                                                   James G. Huse, Jr.




                                             5
                                Appendices
APPENDIX A – Acronyms


APPENDIX B – Scope and Methodology


APPENDIX C – Process for Determining DDS Decisional Accuracy


APPENDIX D – FY 1999 DDS Accuracy Rate by Region and State


APPENDIX E – Other Matters


APPENDIX F – Agency Comments


APPENDIX G – OIG Contacts and Staff Acknowledgments

                                                  Appendix A


                   ACRONYMS
ASSP     Automated Sample Selection Process
 DDS     Disability Determination Services
DICARS   Disability Case Adjudication and Review System
 DQB     Disability Quality Branch
  FY     Fiscal Year
GPRA     Government Performance and Results Act
NDDSS    National Disability Determination Services System
 OHA     Office of Hearings and Appeals
 OQA     Office of Quality Assurance and Performance Assessment
 QA      Quality Assurance
 SSA     Social Security Administration
                                                                     Appendix B

Scope and Methodology
The objective of this review was to assess the reliability of the Social Security
Administration’s (SSA) performance data used to measure the accuracy of initial
disability decisions during Fiscal Year (FY) 1999.

To test the accuracy and reliability of SSA's performance data we:

•	 obtained the sampling methodology used by Office of Quality Assurance and
   Performance Assessment (OQA);

•	 determined whether the sampling methodology was sufficient to provide for a
   statistically valid Disability Determination Services (DDS) Decisional Accuracy Rate;

•   determined whether OQA’s methodology used to calculate the rate was valid;

•	 obtained the programming for the Automated Sample Selection Process (ASSP)
   and determined whether the ASSP allowed all initial cases closed by DDS to be
   subject to selection for a QA review;

•	 obtained from OQA: (1) the data file containing information on 42,313 cases
   selected for a QA review in FY 1999, and (2) the 10 regional Disability Case
   Adjudication and Review System (DICARS) files containing the results of the 42,313
   QA reviews;

•	 compared the information in the OQA data file to the 10 regional DICARS files and
   determined whether data from the 10 regional DICARS files was accurately
   uploaded to the OQA data file;

•	 compared the information in the OQA data file to our analysis of the National
   Disability Determination Services System (NDDSS) and determined whether:
   (1) each case selected for review from the NDDSS was actually reviewed, and (2)
   cases where the original DDS decision was different than the Disability Quality
   Branch (DQB) decision were counted as errors; and

•	 recalculated the DDS Decisional Accuracy Rate based on our analysis of the data
   files.




                                          B-1
In conducting this audit we also:

•	 reviewed SSA's Accountability Report for FY 1999, SSA's Annual Performance Plan
   for FYs 1999, 2000 and 2001 to determine the baseline data, definition, and data
   source for the performance indicator;

•	 reviewed the Government Performance and Results Act, other laws and regulations,
   and Office of Management and Budget circulars;

•	 interviewed OQA policy and program staff regarding the methodologies and
   procedures used to produce performance data for the DDS Decisional Accuracy
   Rate;

•	 interviewed OQA analysts to gain an understanding of the QA review process, the
   composition of OQA's data base, the statistical methods used, and other relevant
   matters; and

•	 interviewed Office of Systems Design and Development staff to gain an
   understanding of the ASSP process.

We reviewed those internal controls related to our audit objective. Our review did not
include a test of NDDSS to verify the completeness and accuracy of the data base file
provided by SSA. In addition, we did not determine the accuracy of the QA review used
by OQA to determine the DDS Decisional Accuracy Rate due to the technical nature of
the QA review. Our audit was limited to OQA’s methodology and data used for
calculating the rate.

We performed our audit at the OQA office in Woodlawn, Maryland and the DQB in
Kansas City, Missouri between October 1999 and February 2001. The entity audited
was OQA within the Office of the Deputy Commissioner for Finance, Assessment and
Management. We conducted our audit in accordance with generally accepted
government auditing standards.




                                         B-2
                                                                                                        Appendix C
Process for Determining Disability Determination Services (DDS)
Decisional Accuracy1

                                                                                     Decision issued
                                        DDS inputs Decision                            to claim ant
                                         into State System

                                                                                                YES
                                          Data Uploaded
                                            to NDDSS
                                                                                          Disability
                                                                          A                decision
                                                                                          accurate?

                       DDS Inputs
                                             NDDSS                                                 NO
                    Decision to NDDSS


                                                                                    Case returned to
                                           Autom ated                               DDS for correction
                                         Sam ple Selection
                                             Process



                                                                              YES            DDS
                                                               NO                          agrees to
                                              Selected                                    correction?
                                               for QA
                                              Rev iew ?

                                                                                                 NO
                                                     YES
                                             Case data                                     DQB still       NO
                                           dow nloaded to                                 considers
                                              DICARS                                        case
                                                                                          deficient?


         QA review data                   Case Forw ared to                                      YES
          entered into                       DQB for QA
            DICARS                            Review
                                                                                       Error charged
                                                                                      against DDS Net           B
                                                                                    Decisional Accuracy
       DICARS uploaded to
       OQA National Datafile
          on mainfram e                    Documentation
                                            Sufficient to           YES
                                                                                    Decision Corrected
                                           Make or Support                A
                                              Disability
                                             Decision?
         OQA National
           Datafile


                                                     NO                   DDS prov ided       NO
                                                                          documentation
                                                                            w ithin 90                  Delinquent Return
             Results                      Case Returned to                    days?
        sum marized on Net                DDS for Additional
         Accuracy Reports                  Docum entation
                                                                                    YES
                                                                                                                B
                                                                               A




1
    See Appendix A for an explanation of the acronyms used in the above flowchart.
                                                               Appendix D
FY 1999 Disability Determination Services (DDS) Decisional
Accuracy by Region and State


           DD
           D
           DDSSD
             DS Decisional on
                Deecciissiio       Accccu
                             naall A
                                   Accuracy       By  Reeg
                                                  Byy R
                                        urraaccyy B   Regionon
                                                         giio n
             Region                  Allowance        Denial        Overall
             Boston                    97.8%          96.7%         97.2%
            New York                   97.9%          95.6%         96.5%
          Philadelphia                 98.3%          96.7%         97.3%
             Atlanta                   98.1%          95.9%         96.6%
            Chicago                    98.3%          95.3%         96.4%
              Dallas                   98.7%          96.8%         97.3%
          Kansas City                  97.9%          96.0%         96.7%
             Denver                    96.2%          97.4%         97.0%
         San Francisco                 97.8%          94.6%         96.0%
             Seattle                   97.0%          94.6%         95.6%




             DD
             D
             DDSSD
               DS Decisional on
                  Deecciissiio       Accccu
                               naall A
                                     Accuracy       Byy S
                                          urraaccyy B
                                                    By  Sttaattee
                                                        State
              State                  Allowance        Denial        Overall
             Alabama                    98.3%          93.4%         94.8%
              Alaska                    95.7%          96.6%         96.2%
              Arizona                   97.9%          94.8%         96.2%
             Arkansas                   98.3%          98.7%         98.6%
             California                 97.8%          94.6%         96.0%
             Colorado                   96.2%          98.0%         97.4%
           Connecticut                  98.0%          94.8%         96.2%
             Delaware                   98.4%          95.6%         96.9%
        District of Columbia            99.4%          97.1%         98.2%
              Florida                   98.6%          97.6%         98.0%
              Georgia                   96.4%          94.7%         95.3%
              Hawaii                    96.7%          93.6%         95.2%
               Idaho                    98.4%          96.3%         97.2%
              Illinois                  99.0%          94.5%         96.2%




                                     D-1

  DD
  D
  DDSSD
    DS Decisional on
       Deecciissiio naall A    urraaccyy B
                          Accccu
                          Accuracy       By  Sttaattee
                                         Byy S
                                             State
    State                 Allowance        Denial        Overall
   Indiana                   98.3%          96.6%         97.2%
     Iowa                    97.7%          96.8%         97.2%
   Kansas                    98.3%          97.2%         97.6%
  Kentucky                   97.5%          97.7%         97.6%
  Louisiana                  96.3%          97.3%         97.0%
    Maine                    98.7%          97.0%         97.7%
   Maryland                  98.7%          96.8%         97.5%
Massachusetts                97.0%          97.3%         97.1%
   Michigan                  97.6%          93.4%         94.9%
  Minnesota                  98.4%          96.8%         97.6%
 Mississippi                 98.3%          94.7%         95.8%
   Missouri                  98.0%          95.2%         96.1%
   Montana                   95.8%          96.0%         96.0%
  Nebraska                   97.1%          96.5%         96.7%
   Nevada                    98.7%          95.1%         97.0%
New Hampshire                100.0%         98.0%         99.1%
 New Jersey                  97.4%          94.6%         95.9%
 New Mexico                  97.7%          96.3%         96.8%
  New York                   98.0%          95.8%         96.6%
North Carolina               97.7%          96.2%         96.8%
 North Dakota                97.7%          94.5%         95.7%
     Ohio                    97.6%          96.3%         96.8%
  Oklahoma                   99.0%          98.3%         98.6%
   Oregon                    99.0%          94.1%         96.2%
 Pennsylvania                98.0%          97.0%         97.4%
 Puerto Rico                 99.7%          96.0%         97.3%
 Rhode Island                99.0%          96.5%         97.8%
South Carolina               98.9%          95.4%         96.7%
South Dakota                 94.3%          97.1%         96.0%
  Tennessee                  98.7%          95.2%         96.4%
    Texas                    99.7%          95.9%         97.0%
     Utah                    97.1%          98.4%         97.9%
   Vermont                   99.0%          98.3%         98.6%
   Virginia                  99.4%          96.3%         97.5%
 Washington                  95.7%          94.3%         94.9%
 West Virginia               95.9%          96.2%         96.1%
  Wisconsin                  99.3%          96.9%         97.8%
  Wyoming                    95.9%          96.7%         96.5%




                          D-2

                                                                                       Appendix E


Other Matters
Accuracy at the Initial Level and the Appeals Level

The Social Security Administration (SSA) has two Government Performance and
Results Act performance indicators that report the accuracy of disability decisions. The
first indicator, Disability Determination Services (DDS) Decisional Accuracy, reflects the
percentage of correct initial determinations issued by State DDSs. The second
indicator, Office of Hearings and Appeals1 (OHA) Decisional Accuracy,2 reflects the
percentage of correct disability hearing decisions issued by OHA. The Office of Quality
Assurance and Performance Assessment (OQA) performs both DDS and OHA
decisional accuracy reviews.

Currently, SSA does not have a method to assess the overall accuracy of payment
outlays for disability-based benefits taking into account DDS and OHA case decisions
and other non-medical factors of eligibility. According to SSA, such a measurement
system is being developed.

SSA’s statistics show a distinct difference in the accuracy of disability decisions at the
initial and appeals levels. For example, the DDS accuracy rate for denials was between
93.4 percent and 98.7 percent (see Appendix D). However, 451,716 denied disability
cases deemed accurate at the initial level were appealed to OHA in Fiscal
Year (FY) 1999.3 For 284,371 of these cases (63 percent), OHA amended the initial
disability decision. According to SSA staff, there are many factors that result in different
decisions at the appellate level and the initial level. These factors include, but are not
limited to, presentation of additional medical evidence at the appeals level and
worsened and/or new impairments.

SSA could realize significant program and administrative savings if it were able to
increase the number of DDS denials upheld by OHA. For example, if the number of
DDS denials upheld by OHA increased by 5 percent, annual Disability Insurance
program savings would be approximately $117 million and annual Supplemental
Security Income program savings would be approximately $69 million.4 Conversely, if

1
 OHA administers the hearings and appeals program and issues the final decision when individuals and
organizations are dissatisfied with determinations affecting their rights to and amounts of benefits or their
participation in programs under the Social Security Act.
2
 “Performance Measure Review: Reliability of the Data Used to Measure the Office of Hearings and
Appeals Decisional Accuracy Rates“ (A-12-00-10057), currently in process.
3
 These statistics were obtained from SSA’s Key Workload Indicators Report and were not validated
during this audit. The 451,716 cases were both denials and partial allowances. These cases may not
correlate to the 2,001,386 initial disability cases closed by DDSs in FY 1999.
4
  The potential rates of improvement are not based on any known study, but are only used to show
potential levels of savings if various levels of improved reversal rates were achieved.

                                                     E-1
10 percent of the denials that are overturned by OHA were considered allowances at
the DDS level, SSA could save approximately $19.9 million in administrative costs.

Delay in Benefit Payments

We found that some claimants are not receiving
          Days        Number
                                                                              Percent
                                                      Outstanding    of Cases
disability payments timely. In FY 1999, OQA

                                                         0 – 30          462     20
returned 2,369 cases to the DDSs because the

                                                        31 – 60          548     23
quality assurance (QA) review determined that

the disability decision was not accurate or
            61 – 90          556     23
documentation was not sufficient to determine if
       Over 90          803     34
the disability decision was accurate. We found
          Total         2,369    100
that resolution time on returned cases averaged

75 days.5 The following chart provides the number of days that returned cases were

outstanding.


              The DDS closed a case as a denial on October 29, 1998, at which time it
Case          was selected for QA review. Upon reviewing the case, the Disability
Illustration  Quality Branch (DQB) returned it to the DDS for a decision correction on
              December 2, 1998. However, the case decision was not finalized as an
allowance until June 4, 1999. Therefore, the claimant did not receive payment until July
1999, or 9 months after the case was selected for QA review. In this case, the claimant
did not receive his benefit payments timely.


      10/29/1998                                                             06/04/1999
                                               03/10/1999                                               07/1999
     Case Closed by                                                      DDS Finalized Case as
                                             Case Received by                                      Claimant Received
    DDS and Selected                                                       an Allowance and
                                             DQB from DDS                                              Payment
     for QA Review                                                       Returned it to the DQB




                   12/02/1998                               04/09/1999
                                                       DQB completed 2nd                          06/10/1999
             DQB Completed Review                                                                 DQB Final
              and Case Returned to                     Review and Returned
                                                        Case to DDS For                            Closure
               DDS For Correction
                                                            Correction

          11/04/1998                                                                   06/09/1999
        Case Received by                                                             Case Received by
        DQB from DDS                                                                 DQB from DDS




The DQB attributes delays in the DDS’ resolving returned cases to the: (1) case being
routed to the field office rather than the DQB, (2) need to obtain additional medical
evidence, (3) internal medical reviews being conducted, or (4) claimants being
uncooperative.



5
  This includes time: (1) to mail the case between the DQB and DDS, (2) for the DDS to conclude on the
case, and (3) for the DQB to conclude on the case. Due to complexities in resolving a case, it may be
sent between the DQB and the DDS more than once.
                                                   E-2
                   Appendix F


Agency Comments

                                                      ~
                                                         -" SF.cG1
                                                               ~
                                                     tl ¥(I ~~1
                                                         usA.~
                                                     ~     1111111
                                                               J
                                                         7lvJSTV

                                        SOCIAL            SECURITY
                                                             --




MEMORANDUM

                                                                                      ReferTo: SIJ-3
Date:      May     29,   200~



To:        JamesG. Ruse, Jr.
           Inspector General

From:      Larry    G. Massanari
                            ..

                                       ,
           Office of the Insp.ec:tpr General Draft Report, "Performance Measure Review:           Reliability   of
Subject:
           the Data Used to M~~sure Disability   Determination       Services (DDS) Decisional Accuracy"
           (A-O7-99-21007~INFORMATION                                                       I
                                                                                            !:"

           Thank you for the opportunity to review and co~ment on the subject report. We appreciate
           OIG's efforts in conducting this review and OIG's acknowledgement of the Agency's
           reliability for determining the pisability Determination Services decisional accuracy. Our
           comments are attached.




           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA
USED TO MEASURE DISABILITY DETERMINATION SERVICES DECISIONAL
ACCURACY" (A-07-99-21007)

We appreciate OIG’s efforts in conducting this review and the opportunity to comment on the
draft report. Our comments on the recommendation are provided below. Additionally, we
recommend that the “Other Matters” section of this report be deleted. The issues covered in this
section were discussed at the exit conference held on April 9, 2001. As indicated during the
conference, we consider these issues beyond the scope of the subject audit.

Following are our comments on the recommendation.

Recommendation

OIG recommends that SSA document the Office of Quality Assurance and Performance
Assessment’s (OQA) methodology for calculating Disability Determination Service (DDS)
Decisional Accuracy in writing.

Comment

The methodology for calculating DDS decisional accuracy already exists in writing. Specifically,
the definition of net accuracy and a description of the methodology used to calculate DDS
decisional accuracy can be found in the first two pages of the monthly Net Accuracy Report.
This report is available on SSA’s Official Intranet Website at http://eis.ba.ssa.gov/oqa/disability/.

Technical Comments

Other Matters (Page 4 and Appendix E)

OIG noted “distinct difference” in the accuracy of initial decisions as determined by

OQA at the initial and appeals levels. At the exit conference, it was pointed out that there are

many reasons for different outcomes, such as worsening of the impairment, a new impairment or

new/additional documentation.


OIG notes that some claimants, due to the process of review, are not receiving their payments

timely. We strongly disagree with this statement. Determinations selected for review are not

final until the OQA review is complete, and therefore, should not be considered as delayed by the

review. The proposed decision is subject to correction and potential reversal.


Appendix E

Page E-1, 4th paragraph – Based on the information provided explaining the different accuracy
rates, one would conclude that the only way to reduce the number of cases changed by OHA
would be to allow benefits at an earlier stage (by more development of the record, etc.). Such
action would reduce administrative costs but not program costs. Since the audit report indicates
there is no study that suggests any mechanism for reducing the number of DDS denials that are
later changed by OHA, we suggest deleting the speculation about program savings if fewer
decisions were changed.



                                                F-2
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division (617) 565-1819

   Mark Bailey, Deputy Director, (816) 936-5591

Acknowledgements

In addition to those named above:

   Shannon Agee, Auditor-in-Charge

   Richard Reed, Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-07-99-21007.
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
